NO. ___________
IN THE SUPREME COURT OF THE UNITED STATES
MACI DENON DAVIS and
JOE L. FRANKLIN,
Petitioners,
v.
UNITED STATES OF AMERICA,
Respondent.
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Petitioners, Maci Denon Davis and Joe L. Franklin, pursuant to 18 U.S.C.
§ 3006A(b) and Rule 39 of the United States Supreme Court, asks leave to file the
attached Petition for Writ of Certiorari without prepayment of costs and to proceed

in forma pauperis. The Federal Public Defender’s Office was appointed to represent
Petitioners in the United States District Court for the Western District of Arkansas
and the United States Court of Appeals for the Eighth Circuit pursuant to an
appointment under the Criminal Justice Act of 1964, as amended.
Dated this 23rd day of April, 2021.
Respectfully submitted,
BRUCE D. EDDY
Federal Public Defender
Western District of Arkansas
_/s/ Anna M. Willilams_________
Anna M. Williams
Assistant Federal Public Defender

Counsel of Record

112 W. Center Street, Ste. 300
Fayetteville, Arkansas 72701
(479) 442-2306
anna_williams@fd.org

